TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Audit Trails Did Not Comply With Standards
                      or Fully Support Investigations of
                 Unauthorized Disclosure of Taxpayer Data



                                      September 20, 2012

                              Reference Number: 2012-20-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


AUDIT TRAILS DID NOT COMPLY WITH                     did not adequately identify all auditable events
STANDARDS OR FULLY SUPPORT                           and related data elements that were required to
INVESTIGATIONS OF UNAUTHORIZED                       be captured in the audit trail. Consequently,
DISCLOSURE OF TAXPAYER DATA                          audit trail logs were missing required data.
                                                     TIGTA observed application users while
                                                     transactions were entered on three IRS
Highlights                                           applications that send audit trails to the Security
                                                     Audit and Analysis System, the IRS’s audit trail
Final Report issued on                               repository system. Multiple audit trail
September 20, 2012                                   weaknesses were identified as a result of tracing
                                                     these transactions. The IRS did not adequately
Highlights of Reference Number: 2012-20-099          validate audit log data that were sent to the
to the Internal Revenue Service Chief                Security Audit and Analysis System to ensure
Technology Officer.                                  that the data necessary to support UNAX
                                                     investigations are captured. The ESAT office
IMPACT ON TAXPAYERS                                  did not conduct tests to determine if actions
Audit trails are a key component of information      taken by users on the system correlated to
technology security and contain a record of          events recorded in the audit trail log or if all
events occurring on a computer from system           required elements were being captured.
and application processes, as well as user           WHAT TIGTA RECOMMENDED
activity. The IRS has taken actions to
implement an enterprise solution to audit trail      TIGTA recommended that the ESAT office
weaknesses, but incomplete audit trail data and      improve processes to ensure Audit Plans and
inconsistent timestamps indicate audit trail         resulting audit trails are accurate, complete, and
processes need improvement. Insufficient audit       compliant with requirements. In addition,
trail data hinder investigations of unauthorized     processes to test audit trail data should be
access (UNAX) to taxpayer information and IRS        improved, and the Audit Plan template should be
management’s ability to enforce UNAX policies.       updated to identify the location of information on
                                                     audit log testing and stakeholder comments and
WHY TIGTA DID THE AUDIT                              to show ESAT office approval that testing was
UNAX is prohibited by law. This audit was            sufficient. TIGTA also recommended that
initiated to evaluate the IRS’s efforts to           timestamp procedures be clarified and made
implement effective UNAX audit trails for            readily available to application owners.
information systems that store and process           In their response, IRS officials stated they
taxpayer data. This audit is included in our         agreed with the recommendation to improve
Fiscal Year 2012 Annual Audit Plan and               processes to test audit trail data. The IRS
addresses the major management challenge of          partially agreed with three recommendations.
Security for Taxpayer Data and Employees.            The IRS did not agree that validation should be
                                                     completed before final ESAT office approval of
WHAT TIGTA FOUND
                                                     Audit Plans, that Audit Plan templates should be
The Enterprise Security Audit Trail (ESAT) office    updated to identify the location of information on
has taken several actions to implement an            audit log testing and stakeholder comments, or
enterprise solution to audit trail weaknesses.       that guidance on timestamps needs revision,
However, process improvements are needed to          although they will review timestamp procedures.
ensure audit trails effectively support UNAX
                                                     TIGTA continues to recommend that the IRS
investigations and IRS management’s ability to
                                                     formalize a location where test and ESAT
identify noncompliant activity and hold
                                                     validation results can be found, set shorter time
employees accountable for UNAX policies.
                                                     frames to implement the proposed changes,
Audit Plans, the key planning document to meet       postpone closing audit trail specific weaknesses,
IRS goals to comply with audit trail standards,      and revise timestamp procedures.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 20, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Audit Trails Did Not Comply With Standards or
                             Fully Support Investigations of Unauthorized Disclosure of Taxpayer
                             Data (Audit # 201220004)

 This report presents the results of our review of the Internal Revenue Service’s efforts to
 implement effective unauthorized access audit trails for information systems that store and
 process taxpayer data. This audit is included in our Fiscal Year 2012 Annual Audit Plan and
 addresses the major management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or Alan
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.
                         Audit Trails Did Not Comply With Standards or Fully Support
                         Investigations of Unauthorized Disclosure of Taxpayer Data




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Enterprise Security Audit Trail Office Has Taken
          Actions to Implement an Enterprise Solution to Audit
          Trail Weaknesses .......................................................................................... Page 4
          Process Improvements Are Needed to Ensure Audit Trails
          Effectively Support Unauthorized Access Investigations............................. Page 5
                    Recommendation 1:........................................................ Page 10

                    Recommendations 2 and 3: .............................................. Page 11

                    Recommendation 4:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Descriptions of Applications................................................ Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
        Audit Trails Did Not Comply With Standards or Fully Support
        Investigations of Unauthorized Disclosure of Taxpayer Data




                       Abbreviations

AMS             Account Management Services
ESAT            Enterprise Security Audit Trail
IRS             Internal Revenue Service
MeF             Modernized e-File
SAAS            Security Audit and Analysis System
TDS             Transcript Delivery System
TIGTA           Treasury Inspector General for Tax Administration
UNAX            Unauthorized Access
                     Audit Trails Did Not Comply With Standards or Fully Support
                     Investigations of Unauthorized Disclosure of Taxpayer Data




                                            Background

The Internal Revenue Service (IRS) relies extensively on computer systems to carry out the
responsibilities of administering the Nation’s tax laws, including processing Federal tax returns
and collecting Federal taxes. IRS computer systems process hundreds of millions of tax and
information returns and contain tax information for more than 100 million taxpayers. Because of
the sensitivity of these data, the IRS must maintain effective information security controls over
its systems to protect financial and taxpayer information from inadvertent or deliberate misuse,
improper disclosure, or destruction.
Audit trails are a key component of effective information technology security. Audit trails
contain a record of events occurring on a computer from system and application processes,1 as
well as user activity. In essence, audit trails should provide information as to what events
occurred, when the events occurred, and who (or what) caused the events. This information can
allow an organization to reconstruct events, monitor compliance with security policies, identify
malicious activity or intrusion, and analyze user and system activity. Maintaining sufficient
audit trails is critical to establishing accountability,
particularly over individual users and their activities.
The National Institute of Standards and Technology, the           Maintaining sufficient audit trails
                                                                     of user activity on computer
Department of the Treasury, and the IRS’s policies and
                                                                   systems is a critical component
procedures contain requirements for the capture, storage,               of information security.
transmission, review, and retention of audit trails. These
policies and procedures require that audit trails be
sufficient in detail to facilitate the reconstruction of events if unauthorized activity or a
malfunction occurs or is suspected on enterprise-computing assets.
Due to the sensitive nature of tax return information, Internal Revenue Code Section (§) 61032
and the Taxpayer Browsing Protection Act of 19973 require the IRS to detect and monitor the
unauthorized access (UNAX) and disclosure of taxpayer records. The willful unauthorized
access or inspection of taxpayer records is a crime punishable upon conviction by fines, prison
terms, and termination of employment.
The implementation of audit trail solutions has been a challenge for the IRS. In 1997, the IRS
identified computer security as a material weakness under the Federal Managers’ Financial

1
  A system is a set of interdependent computer components that may include software, hardware, and processes. An
application is a component of a system and is designed to help the user perform specific tasks, such as accounting
functions or word processing.
2
  Internal Revenue Code § 6103 restricts the disclosure of tax returns and return information.
3
  Pub. L. No.105-35, 26 U.S.C. §§ 7213, 7213A, 7431.
                                                                                                          Page 1
                      Audit Trails Did Not Comply With Standards or Fully Support
                      Investigations of Unauthorized Disclosure of Taxpayer Data



Integrity Act of 1982.4 The Federal Managers’ Financial Integrity Act requires that each agency
conduct annual evaluations of its systems of internal accounting and administrative controls, and
submit an annual assurance statement on the status of the agency’s system of management
controls. As part of the evaluations, agency managers identify control areas that can be
considered material weaknesses.5 The IRS’s computer security material weakness included audit
trails as one of its nine subsections.6 Audit trails were included as part of the computer security
material weakness because the IRS was not effectively monitoring key networks and systems to
identify unauthorized activities and inappropriate system configurations.
The IRS established the Enterprise Security Audit Trail (ESAT) Project Management Office
(hereafter referred to as the ESAT office) within its Cybersecurity organization in March 2010.
The ESAT office’s mission is to resolve the IRS’s audit trail material weakness by managing all
enterprise audit initiatives and overseeing the deployment of various audit trail solutions that
meet the required standards.7 The IRS decided that audit trails for systems that store or process
taxpayer data should be sent to the Security Audit and Analysis System (SAAS), where they
could be accessed by those responsible for reviewing questionable activities and investigating
potential UNAX violations. The SAAS is the audit trail repository for both projects in
development and existing production applications when taxpayer data are accessed.
Despite the IRS’s requirement that employees complete UNAX awareness training annually,
which emphasizes that accessing taxpayer information without a business justification is a
security violation, the Treasury Inspector General for Tax Administration (TIGTA) Office of
Investigations investigates an average of nearly 400 UNAX violations each year. The TIGTA
Office of Investigations uses various sources of information to detect potential unauthorized
accesses to tax return information including audit trails generated by the Integrated Data
Retrieval System, the Modernized e-File (MeF) system, the Transcript Delivery System (TDS),
and the Account Management Services (AMS).8



4
  31 U.S.C. §§ 1105, 1113, 3512 (2000).
5
  The Department of the Treasury has defined a material weakness as, “shortcomings in operations or systems
which, among other things, severely impair or threaten the organization’s ability to accomplish its mission or to
prepare timely, accurate financial statements or reports.”
6
  The nine subsections of the computer security material weakness are: 1) network access controls, 2) system and
application access controls, 3) system software configuration, 4) security roles and responsibilities, 5) separation of
duties, 6) contingency planning, 7) audit trails, 8) security-related training, and 9) certification and accreditation.
The IRS has completed actions to remediate the separation of duties, training, and certification and accreditation
subsections.
7
  Similar functions were carried out by a predecessor organization called the Computer Security Audit Trail
organization established in 2008.
8
  The Integrated Data Retrieval System is an IRS computer system capable of retrieving or updating stored
information. It works in conjunction with a taxpayer’s account records. See Appendix IV for a description of the
MeF system, the TDS, and the AMS. These applications send audit trails to the SAAS, but only Integrated Data
Retrieval System audit trails are complete in the SAAS.
                                                                                                                Page 2
                     Audit Trails Did Not Comply With Standards or Fully Support
                     Investigations of Unauthorized Disclosure of Taxpayer Data



In addition, IRS security specialists review daily SAAS audit log reports for suspicious or
unauthorized activities. If noncompliant activity is found, IRS managers are required to initiate
disciplinary actions. Making sure that systems capture required events accurately and
completely in the SAAS is critical to the resolution of the audit trail material weakness, adequate
UNAX detection efforts, and IRS management’s ability to enforce UNAX policies.
This review was performed at the Modernization and Information Technology Services9
organization Office of Cybersecurity in New Carrollton, Maryland, during the period
September 2011 through May 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




9
  On July 1, 2012, the Modernization and Information Technology Services organization changed its name to the
Information Technology organization.
                                                                                                         Page 3
                       Audit Trails Did Not Comply With Standards or Fully Support
                       Investigations of Unauthorized Disclosure of Taxpayer Data




                                        Results of Review

The ESAT office has taken actions to implement the SAAS as the enterprise solution to address
audit trail weaknesses. However, its actions did not result in a process that was effective in
supporting UNAX investigations. As a result, UNAX investigations may be difficult or
impossible to accomplish using the SAAS, the stated enterprise solution. Without the audit data
needed to complete UNAX investigations, IRS management may be unable to identify or
substantiate noncompliant activity, or hold employees accountable to UNAX policies.
Additionally, the IRS should not rely on the SAAS to address the computer security material
weakness related to audit trails until improvements have been made to better capture key audit
trail data.

The Enterprise Security Audit Trail Office Has Taken Actions to
Implement an Enterprise Solution to Audit Trail Weaknesses
The ESAT office has been instrumental in helping application owners produce plans to
implement audit trail policies and procedures. It has developed an Audit Plan template to ensure
that policies and procedures are considered when decisions are made as to which information
should be captured for audit trails. It also has acted as a facilitator and resource to application
owners as they develop the Audit Plans. In addition, the ESAT office has been receptive to
stakeholder input from the TIGTA Office of Investigations about potential changes that should
be made to the process. For example, based on TIGTA Office of Investigations’ input, the
ESAT office added requirements to the Internal Revenue Manual10 that improved audit trails,
enhanced educational efforts to application owners on what constitutes auditable events, and
more frequently sought stakeholder input during Audit Plan formation that resulted in better
plans.
Audit Plans, which contain critical audit trail details, such as which events and data elements are
used by an application, are the most important document to ensure that audit trail standards are
met and all the required information is captured. IRS policy states that every interaction with
taxpayer information through an application is an auditable event. Application owners are
directed to document the following audit trail information in their Audit Plans.
          What events occurred (e.g., add, delete, modify, or research).
          When the events occurred (i.e., timestamp).
          Who (or what) caused the events.

10
     Internal Revenue Manual 10.8.3, Information Technology Security, Audit Logging Security Standards.
                                                                                                          Page 4
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



      Success or failure of the transaction.
      Information related to the taxpayer’s identity, tax form type, and tax period.
      Any supplemental information on specific individuals or transactions requiring additional
       oversight.
The Audit Plan is customized to each individual application and parallels audit trail guidance
from the National Institute of Standards and Technology in Recommended Security Controls for
Federal Information Systems and Organizations (Special Publication 800-53). Once completed,
the ESAT office must approve and sign off on each application’s Audit Plan.
The IRS’s goal is that all applications in which taxpayer information is accessed, whether the
application is in development or in production, will eventually send audit trails to the SAAS.
The ESAT office’s tracking sheet shows that it identified 380 applications that could potentially
contain taxpayer information and therefore be required to send audit trails to the SAAS. Because
some of those 380 systems will be retired or are subsystems, the ESAT office estimates that
currently 339 applications potentially require an Audit Plan. However, the ESAT office has not
evaluated whether these applications actually contain taxpayer information and therefore would
need to send audit trails to the SAAS. The ESAT office did not know of any other source of
information at the IRS that could provide this determination for these applications. In general,
the ESAT office has been prioritizing the completion of Audit Plans for new applications in
development and applications included in Federal Information Security Management Act reports.
ESAT officials advised us that they have reviewed and approved 83 application Audit Plans. As
of March 2012, the SAAS contained audit trail data from 20 applications.
The ESAT office has taken additional actions to address SAAS deficiencies and to promote
acceptable UNAX monitoring. For example, it has recently overseen the addition of three new
data fields in the SAAS to improve compliance with audit trail standards and ensure the capture
of required audit trail data elements.
Despite these accomplishments, we identified several factors that have hindered the ESAT
office’s further progress in making the SAAS an effective enterprise audit trail solution for
UNAX monitoring and in addressing and resolving the audit trail material weakness.

Process Improvements Are Needed to Ensure Audit Trails Effectively
Support Unauthorized Access Investigations
Audit Plans, the key planning document to meet the IRS’s goals to comply with audit trail
standards, did not adequately identify all auditable events and related data elements that were
required to be captured in the audit trail. Consequently, SAAS data did not include key events
and data elements in the audit trail. The SAAS data also were not always captured in a usable
format, and the timestamp was not consistent. The data were generally collected as anticipated
in the Audit Plans, but the Audit Plans did not adequately describe all of the data that should
                                                                                            Page 5
                     Audit Trails Did Not Comply With Standards or Fully Support
                     Investigations of Unauthorized Disclosure of Taxpayer Data



have been collected. These issues may compromise investigations and the IRS’s ability to
eventually close the audit trail subsection of the computer security material weakness.

Audit plans did not include all events and data elements
We selected a judgmental sample11 of three applications to review for accuracy and completeness
of the Audit Plans and SAAS data. An important consideration in our selection was whether the
applications qualified as meeting the closure criteria for one of the audit trail corrective actions
for the computer security material weakness.12 We selected the following applications: the
AMS, the TDS, and the MeF system. These applications collectively process or store taxpayer
data on potentially every taxpayer account.
Two of the three Audit Plans we reviewed, although approved by the ESAT office, did not
identify all application events that involve access to taxpayer data. For example, the TDS used
the same event description for every transaction that occurred. The AMS used four different
event descriptions, but they were not sufficient to identify exactly which document had been
accessed or whether the document was added, deleted, modified, or used for research (viewed).
The MeF system Audit Plan identified the key events and had a good description for them.
Similarly, the Audit Plans did not specify how all the required data elements would be collected
for each event. For example, IRS policies require capturing the type of tax form and the tax
period for each event when taxpayer information is accessed; however, the Audit Plans did not
specifically address how these data elements should be captured. A complicating factor was that
the SAAS was unable to capture these required data elements as separate fields until
September 2011. However, they could have been recorded in a large “variable” field that was
available to all applications.
The description of auditable events in Internal Revenue Manual 10.8.3 and the Audit Plan
template is unclear. The manual states that when a taxpayer record has been added, deleted,
modified, or researched, that event shall be captured and recorded. However, neither the manual
nor the Audit Plan template provide sufficient details on how to translate application transactions
to audit trail events or to ensure sufficient events are recorded for each type of transaction.
ESAT officials stated that although they are responsible for oversight of the Audit Plan process
and the SAAS, they are only facilitators and do not possess the depth of technical knowledge


11
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
12
  The audit trail subsection of the computer material weakness contains 10 corrective actions, one of which required
the implementation of an application monitoring capability for at least four applications. In January 2011, the
System Security and Privacy Executive Steering Committee approved closure of this corrective action based on the
ESAT office’s determination that the SAAS was in continuous receipt of security logs for 16 applications, that the
logs were retained in accordance with Internal Revenue Manual 10.8.3, that Cybersecurity organization analysts
were dedicated on a per application basis to exercise log analysis, and that the analysts were able to generate
appropriate and useful reports against activities from these applications.
                                                                                                            Page 6
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



necessary to assist application owners in the detailed preparation of the Audit Plans. Instead, the
ESAT office relies on the application owner’s resources and expertise to complete the Audit
Plan. However, the ESAT office has signatory authority and oversight responsibility for the
Audit Plans. If Audit Plans do not document all the information necessary to ensure that the
required who, what, when, and where is logged, the IRS has no assurance that the SAAS audit
trail data will sufficiently log these details.

The ESAT office did not ensure sufficient testing of audit trail data to validate its
accuracy and completeness
The ESAT Audit Plan process does not include essential steps to adequately validate audit log
data to ensure the SAAS is capturing the required elements necessary to support UNAX
investigations. In addition, the results from the limited testing that is performed are not recorded
as part of the Audit Plan.
ESAT officials informed us that they do conduct various validity checks on the data loaded into
the SAAS, but they do not verify that audit trails capture all that is required. The ESAT office’s
testing of data sent to the SAAS is limited to only confirming receipt of data, conducting
character validity checks for each SAAS data field, and determining that the reporting feature
within the SAAS is functioning properly. It does not conduct transaction-based tests on the data
in the SAAS to ensure it is accurate, complete, and meets requirements. Specifically, the ESAT
office does not conduct tests to determine whether actions taken by users on the system correlate
to events recorded in the SAAS audit trail, or that all required elements are being captured in
SAAS.
In December 2011, we observed various transactions performed by application users on our three
sample applications and analyzed the resulting audit trail data sent to the SAAS. None of the
three applications sent sufficient audit trail data to the SAAS that would allow for easily
reconstructing events. The events and data elements in the SAAS generally paralleled those
described in the Audit Plan and, consequently, the same issues were present; key events and data
elements were not captured. We also identified additional deficiencies through our transaction
testing. Figure 1 provides details of the audit trail weaknesses identified during our review.
Improvements made to the AMS and the TDS subsequent to our testing are described in
footnotes 13 and 14.




                                                                                             Page 7
                     Audit Trails Did Not Comply With Standards or Fully Support
                     Investigations of Unauthorized Disclosure of Taxpayer Data



                Figure 1: Audit Trail Weaknesses of Sampled Applications

                      Audit Weakness                                AMS13             TDS14         MeF System
 No one-to-one correlation exists between transactions
 accessing a tax record and events recorded in the                     √                √
 SAAS. For example, two returns from different years
 could be accessed, but only one record would appear in
 the SAAS.
 Required data elements were missing in the SAAS,
 such as type of tax form, tax period, and the success or              √                √                 √
 failure of the transaction.
 Additional data elements needed for UNAX
 investigations were missing in the SAAS, such as the                  √                √                 √
 type of taxpayer (individual or business).
 Events recorded in the SAAS were not sufficiently
 descriptive to determine what type of taxpayer                        √                √
 information had been accessed.
 Variable field data in SAAS audit trails did not follow
 a standard format and were mostly not relevant for                    √                √                 √
 investigative purposes.
 The timestamp was not correctly captured or was not
 synchronized.                                                         √                                  √
 The application name was not captured in the SAAS.                    √
 Accesses made through the AMS to information in
 other systems were not in the SAAS.                                   √
Source: TIGTA analysis of SAAS audit trails.

In addition to not recording events and data elements that fully reflected the nature of the
transactions we observed, we also identified three other deficiencies where some events were not
captured as they occurred, variable fields contained long strings of useless information, and
timestamps were inconsistent from application to application and may not have been properly
synchronized.



13
   Subsequent to our testing, the AMS was revised so that the AMS name is now captured along with its log entries
in the SAAS.
14
   The TDS captured a data element for the success or failure of the transaction, but did not capture two other
required data elements. Additionally, TDS staff stated that subsequent to our testing, they made improvements to
the SAAS audit trail, including that each transaction is captured separately (we confirmed that now a one-to-one
correlation between transactions and SAAS records exists), and the variable field uses a standard format that
contains relevant information.
                                                                                                          Page 8
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



Our testing showed that some events were not captured as they occurred. Specifically, we found
no one-to-one correlation between transactions and the events that were recorded in the SAAS.
For example, when two returns from different tax years were accessed in the same user session,
only one record was written to the SAAS, and it did not capture the tax years. Additionally, the
AMS allowed users to access information from other applications, and these accesses were not
recorded in the SAAS either by the AMS or the other applications. End users had access to this
untracked information even when they did not have approval to access the other applications
directly.
The SAAS variable field, which was used to capture any relevant information not already
captured in defined fields, contained some information. Prior to implementing separate fields for
certain required data elements, such as the type of tax form and the tax period, the variable field
could be used to capture that information. Additionally, applications may use the variable field
to capture information that might be useful to investigations, such as taxpayer representative
contact information or fax numbers. However, most of the information captured was a string of
programming code for the transaction or the document. The code sometimes contained no
relevant information at all and sometimes contained information that was relevant but
unformatted (and thus not usable for investigative purposes). Much of this information was
useless and capturing it may strain computer capacity, which the IRS has indicated is an issue for
audit trail data. Application owners told us they did this because initially no specific guidance
existed on how to put formatted information in the field.
The IRS mandates an authoritative time server be used for the purpose of synchronizing the
computer system clocks (used for the event timestamp). Synchronization ensures proper
sequencing of transactions recorded in audit trails, which is important in developing reliable and
convincing investigation results. However, the IRS policy is vague, and the IRS has been unable
to provide detailed procedures regarding how this policy is supposed to be implemented. When
asked, IRS personnel could not definitively state how to determine the proper time zone for the
timestamp, or what the authoritative time server is for synchronizing system clocks.
Consequently, we noted discrepancies in audit event timestamps, which could thwart
investigations and law enforcement activities. Until the IRS provides system owners with
adequate procedures related to synchronization and timestamps, it cannot ensure that audit trail
events will be accurately time stamped and able to support UNAX investigations.
The weaknesses described in and after Figure 1 could have been identified by the IRS if adequate
audit log validation and testing had been performed. Our analysis compared detailed records of
observed transactions conducted by application users to the audit trails from both the application
and the SAAS. For example, through a simple input/output comparison, we found that the
SAAS did not contain a record for every transaction that was input at the application level, and
that the SAAS record was not always sufficient to determine what document had been viewed
and when. Without sufficient testing of audit log data, the IRS cannot confirm that actions
performed on a system can be reconstructed in support of a UNAX investigation.

                                                                                            Page 9
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



Incomplete audit trail data and inconsistent timestamps hinder investigations and
affect the IRS’s ability to address the computer security material weakness
The SAAS cannot be a good audit trail enterprise solution as long as it continues to lack events,
data elements, and consistent timestamps. Insufficient audit trail data hinder investigations of
IRS policy violations, suspicious activity, and unauthorized access to taxpayer information.
Employees may be less deterred from engaging in malicious or unauthorized activity if they
believe their activities are not being monitored.
Implementing a repeatable process to ensure that applications capture all required audit trail
events is also critical to the resolution of the audit trail subsection of the computer security
material weakness. The IRS has worked for years to develop an effective way to address this
weakness and has made continuous incremental improvements. The IRS developed multiple
corrective actions to deal with audit trail weaknesses, one of which related to employing the
SAAS to capture and report on audit trail data. The SAAS appeared to be accomplishing this
corrective action as the IRS had framed it and, consequently, IRS management deemed this
corrective action ready for closure. However, until a repeatable process is in place to ensure the
audit trail data in the SAAS are complete and accurate, the IRS should not rely on SAAS data to
support closure of the material weakness.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Ensure the ESAT office improves processes to ensure Audit Plans are
accurate, complete, and compliant with requirements prior to signing the Audit Plans;
specifically, that meaningful events, required data elements, and descriptive variable information
are captured in the SAAS audit trails for all applications. The ESAT office should facilitate
development of application Audit Plans with collaboration between the application owner who
prepares the Audit Plan and stakeholders of the audit trails, including the Cybersecurity
organization and the TIGTA Office of Investigations. Comments and concerns of the
stakeholders with respect to the Audit Plans should be documented and resolved.
       Management’s Response: The IRS partially agreed with this recommendation. The
       ESAT office will ensure that Audit Plans are accurate, complete, and compliant with
       Internal Revenue Manual 10.8.3 requirements prior to signing. The ESAT office will
       facilitate the development of application Audit Plans in collaboration with the application
       owner and stakeholders, including Cybersecurity and the TIGTA Office of Investigations.
       Stakeholder comments and concerns about the Audit Plans will be documented and
       resolved. The capture of meaningful events, required data elements, and descriptive
       variable information for all applications will be improved in the SAAS audit trails as set
       forth in the Audit Plans. However, the IRS disagreed that validation should be completed
       prior to signing the Audit Plans.

                                                                                           Page 10
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



       Office of Audit Comment: We have concerns with the implementation date of this
       corrective action by November 1, 2016, more than four years after the issuance of this
       report. Without the collaboration of the stakeholders and improved processes to
       document and resolve their comments and concerns while Audit Plans are being
       developed, the IRS will have no assurance that the accuracy and completeness of Audit
       Plans will improve in order for the compliance of the resulting audit trails to improve.
       Therefore, we recommend immediate implementation of this corrective action. We are
       also in agreement that the ESAT office’s validation of audit trails would occur
       subsequent to its signing of the Audit Plan, and did not intend otherwise in
       Recommendation 1.
Recommendation 2: Ensure the ESAT office improves processes to test audit trail data;
specifically, to validate that details from transactions entered into the application are complete
and timestamps are consistent in the SAAS, not just that data are being successfully transmitted
to the SAAS. Validation of audit trails should also be a collaborative effort with stakeholders,
including the Cybersecurity organization and the TIGTA Office of Investigations. Comments of
the stakeholders with respect to audit trail testing should be documented.
       Management’s Response: The IRS agreed with this recommendation. The ESAT
       office will improve processes to test audit trail data to validate that details from
       transactions entered into the application are complete and timestamps are consistent in
       the SAAS, not just that data are being successfully transmitted to the SAAS. Validation
       of audit trails will also be a collaborative effort with stakeholders, including the
       Cybersecurity organization and the TIGTA Office of Investigations. Stakeholder
       comments and concerns about the audit trails testing will be documented.
Recommendation 3: Ensure the ESAT office updates the Audit Plan template to include:
1) a statement that audit trails must allow for subsequent forensic reconstruction and review of
employee user-initiated actions by identifying the element of account information
(i.e., document, form, case file, or narrative) and which of the four actions (added, deleted,
modified, or researched) was taken on the account; 2) information about where audit trail testing
results and stakeholder comments regarding the Audit Plan development can be found; and
3) a second ESAT approval on the Audit Plan to verify that sufficient testing of audit trails was
completed.
       Management’s Response: The IRS partially agreed with this recommendation. The
       information requested in part 1 of this recommendation is already included in the Audit
       Plan template in accordance with Internal Revenue Manual 10.8.3. The IRS agrees the
       ESAT office will improve processes to test audit trail data to validate that details from
       transactions entered into the application are complete as specified in the Audit Plan.
       Validation of audit trails will also be a collaborative effort with stakeholders, including
       the Cybersecurity organization and the TIGTA Office of Investigations. Stakeholder
       comments and concerns about audit trail testing will be documented and retained. The

                                                                                          Page 11
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



       IRS disagreed that the Audit Plan template should be updated to include information
       about where stakeholder comments regarding the Audit Plan development and the audit
       trail testing results can be found. The IRS also disagreed that a second ESAT approval
       should be conducted for the Audit Plan to indicate testing was completed. However, any
       changes to the Audit Plans determined as necessary from test results analysis will be
       addressed immediately.
       Office of Audit Comment: The IRS disagreed to update the Audit Plan template to
       include information regarding audit trail testing and proposed no alternative solution or
       location. We continue to recommend that the ESAT office’s improved audit trail testing
       processes formalize a location where test results and the ESAT office’s validation of the
       audit trail data can be found. Currently, the IRS is using ESAT-approved Audit Plans to
       close audit trail weaknesses at the application level and at the IRS organizational level.
       However, ESAT-approved Audit Plans provide no assurance that the audit trails are
       compliant with requirements. Those who test audit trail controls at the application and
       organization levels during security control assessments or annual testing of controls
       should be instructed to base the status of the audit trail controls on ESAT-validated audit
       trails, not on ESAT-approved Audit Plans. We also have concerns that the IRS has set
       the implementation date for its improvement of audit trail testing processes to be
       November 1, 2016, and believe a shorter time frame should be set. Until processes are in
       place for proper testing and the ESAT office’s validation of audit trails, audit
       trail-specific weaknesses at the application or organizational level should not be closed.
Recommendation 4: Revise policies and procedures to ensure timestamp guidance is clear
and readily available to application owners. Guidance should include which devices serve as
authoritative time servers for synchronization, how to configure local systems to synchronize
with authoritative time servers, and where to locate assistance if needed.
       Management’s Response: The IRS partially agreed with this recommendation.
       Guidance that describes which devices serve as authoritative time servers and how local
       systems are configured to align with those servers did exist, but was not readily available
       for the auditors. The IRS will review existing policies and procedures for timestamps
       and ensure the guidance is clear and available to all stakeholders.
       Office of Audit Comment: We continue to recommend the IRS ensures that its
       policies and procedures related to timestamp guidance be revised, not just reviewed with
       no assurance that they will be revised. The IRS needs to adequately document or log the
       actual time zone in the Audit Plan or within the audit trail. The current process leaves
       time zones up to interpretation, which can be detrimental to any administrative or
       criminal investigation, and resulting adjudications of potential UNAX cases.




                                                                                          Page 12
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’s efforts to implement effective
UNAX audit trails for information systems that store and process taxpayer data. To accomplish
our objective, we:
I.     Determined whether the IRS has an effective process to comply with application audit
       trail requirements in the preparation of Audit Plans and sending audit trail information to
       the SAAS.
       A. Identified and reviewed policies, procedures, and guidelines related to the audit trail
          process.
       B. Interviewed the Cybersecurity organization’s ESAT Project Management Office
          (hereafter referred to as the ESAT Office) personnel and other Cybersecurity
          organization personnel to document and assess the procedures for preparing and
          approving Audit Plans, and verifying the completeness and accuracy of data sent to
          the SAAS.
       C. Evaluated the IRS’s progress towards implementing adequate audit trails for its
          population of applications that contain taxpayer data.
II.    Determined if either the application project office or the application owner has completed
       and approved an Audit Plan in compliance with ESAT office guidance, and the Audit
       Plan accurately identifies all required auditable events.
       A. Identified the population of applications in use by the IRS and selected a judgmental
          sample for further review and testing.
          1. Obtained a list of applications dated July 27, 2011, indicating the TIGTA Office
             of Investigations’ and the ESAT office’s priorities.
          2. Selected a judgmental sample of three applications for detailed testing from
             199 applications identified by the TIGTA Office of Investigations. Consideration
             for selection included whether the application processes and stores taxpayer data,
             has completed an Audit Plan, is sending audit trail information to the SAAS, has
             been identified to support the closure of the computer security material weakness
             for audit trails, and is categorized as high priority by the TIGTA Office of
             Investigations and/or the ESAT office. We selected a judgmental sample due to
             staff resource constraints, and we did not plan to project our results.


                                                                                           Page 13
                  Audit Trails Did Not Comply With Standards or Fully Support
                  Investigations of Unauthorized Disclosure of Taxpayer Data



       B. Obtained and reviewed core record layouts of audit trails and IRS employee training
          materials to identify transactions that read, write, execute, modify, or delete taxpayer
          accounts.
       C. Interviewed front-line employees or managers to ensure application events that read,
          write, execute, modify, or delete taxpayer data are identified in the Audit Plan.
       D. Determined whether the Audit Plan accurately addresses all taxpayer transaction
          capabilities (read, write, execute, modify, delete) as identified in interviews, training
          records, core record layouts, and variable definitions.
       E. For issues identified, interviewed appropriate personnel and/or obtained
          documentation to determine the cause.
III.   Determined whether the applications selected for review capture a complete and accurate
       audit trail of information necessary to support forensic investigation of transactions
       involving taxpayer information.
       A. Conducted field observations of different types of transactions being input to the
          sample applications and recorded the information.
       B. Obtained application audit trails from the application owner or project office, along
          with SAAS audit trails, to verify that field observation transactions were complete
          and accurately captured in the audit trails.
           1. Verified that the elements for each of the transactions executed during field
              observations matched the audit trail transaction elements.
           2. For those transactions not executed during field observations, verified through
              review of the audit trails that they were being captured. If additional transactions
              that read, write, execute, modify, or delete taxpayer information were not
              identified in the sample audit trail extracts, we contacted the application owner or
              project office to provide supporting evidence that these transactions were being
              captured in audit trails.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
capturing, storing, transmitting, reviewing, and retaining audit trails. We evaluated these
controls by reviewing IRS policy and procedure documents, interviewing IRS personnel, and
observing various transactions performed by application users on our three sample applications
and analyzing the resulting audit trail data.

                                                                                            Page 14
                 Audit Trails Did Not Comply With Standards or Fully Support
                 Investigations of Unauthorized Disclosure of Taxpayer Data



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Myron L. Gulley, Senior Auditor
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Sam Mettauer, Senior Auditor




                                                                                     Page 15
                Audit Trails Did Not Comply With Standards or Fully Support
                Investigations of Unauthorized Disclosure of Taxpayer Data



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                       Page 16
                     Audit Trails Did Not Comply With Standards or Fully Support
                     Investigations of Unauthorized Disclosure of Taxpayer Data



                                                                                          Appendix IV

                          Descriptions of Applications

 Application                       Description

 Account Management                The purpose of the AMS is to provide an integrated approach to view,
 Services                          access, update, and manage taxpayer accounts by providing IRS
                                   employees with the tools necessary to access information quickly and
                                   accurately in response to complex customer inquiries and to update
                                   taxpayer accounts on demand. Functionality includes inventory
                                   management; next case delivery; nationwide history and follow-ups;
                                   correspondence received from taxpayers concerning lost, stolen,
                                   destroyed, or returned refunds; immediate print capabilities to fax to
                                   taxpayers; and generation of electronic referrals. As of March 2012,
                                   the AMS had processed more than five million transactions since it
                                   was implemented in September 2009.

 Modernized e-File                 The MeF system runs on a modernized, Internet-based electronic file
                                   platform. Its purpose is to provide a single method for filing all
                                   business and individual tax returns, forms, and schedules via the
                                   Internet. The MeF system provides real-time processing of tax returns
                                   that improves error detection, standardizes business rules, and expedites
                                   acknowledgments. MeF system volume has been increasing due to the
                                   phasing in of its components. For Calendar Year 2012 (as of March),
                                   the MeF system had accepted more than 59 million individual and
                                   business returns (out of about 83 million returns submitted).

 Transcript Delivery System        The purpose of the TDS is to provide self-service for return and account
                                   information requests by external customers. The TDS automates the
                                   validation, processing, and delivery of taxpayer information to the
                                   authorized third-party user. TDS transactions include self-service
                                   electronic communication, where the user can request and receive a
                                   transcript product interactively. The user will have the ability to specify
                                   an information delivery method by systematic responses, automatic fax,
                                   or postal mail. As of March 2012, the TDS had processed more than
                                   144 million transactions since it was implemented.
Source: TIGTA, Ref. No. 2008-20-053, The Account Management Services Project Is Meeting Its Development Goals
pp. 1, 8, 52 (Mar. 2008); TIGTA, Ref. No. 2011-40-131, Low Participation and Tax Return Volumes Continue to
Hinder the Transition of Individual Income Tax Returns to the Modernized e-File System p. 1 (Sept. 2011); the
IRS As-Built Architecture website; and the March 2012 Modernization and Information Technology Services
Business Value Chart.


                                                                                                     Page 17
     Audit Trails Did Not Comply With Standards or Fully Support
     Investigations of Unauthorized Disclosure of Taxpayer Data



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 18
Audit Trails Did Not Comply With Standards or Fully Support
Investigations of Unauthorized Disclosure of Taxpayer Data




                                                       Page 19
Audit Trails Did Not Comply With Standards or Fully Support
Investigations of Unauthorized Disclosure of Taxpayer Data




                                                       Page 20
Audit Trails Did Not Comply With Standards or Fully Support
Investigations of Unauthorized Disclosure of Taxpayer Data




                                                       Page 21
Audit Trails Did Not Comply With Standards or Fully Support
Investigations of Unauthorized Disclosure of Taxpayer Data




                                                       Page 22
